NO.

 

IN THE
SUPREME COURT OF THE UNITED STATES

GEORGE CHARLES CLARK,
Petitioner
v.
CHAMPION NATIONAL SECURITY, INCORPORATED,

Respondent.

On Petition for Writ of Certiorari
To the United States Court of Appeals
For the Fifth Circuit

CERTIFICATE OF COMPLIANCE

Susan E. Hutchison
Texas State Bar No. 10354100
Counsel of Record for Petitioner

Hutchison & Stoy, PLLC
505 Pecan Street, Suite 101
Fort Worth, Texas 76102
@hsjustice.com

 

T: (817) 820-0100
F: (817) 820-0111

 
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari contains 3,120 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1 (d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 17, 2020.

 
